U.S. Department of the Interior
Office of Inspector General

                             Audit Report

                 Virgin Islands Lottery
        Government of the Virgin Islands




                            Report No. 01-I-290
                            May 2001
EXECUTIVE SUMMARY
                   The Virgin Islands Lottery was created in 1937 and established as
BACKGROUND         an independent instrumentality of the Government of the Virgin
                   Islands in 1971. The Lottery operates a traditional biweekly
                   lottery and also sells instant lottery tickets. The Lottery’s revenues
                   totaled $27,793,400 during fiscal years 1998 and 1999, and
                   expenditures during the same 2 years totaled $28,182,366. The
                   Lottery’s unaudited financial statements showed losses of
                   $120,062 in fiscal year 1998 and $268,904 in fiscal year 1999.


                   The objective of the audit was to determine whether the Lottery
OBJECTIVE          (1) had adequate procedures and management controls in place for
                   the disposition of revenues from ticket sales, the payment of prizes,
                   and the disposition of unsold lottery tickets and (2) distributed its
                   revenues in accordance with legal requirements.


                   The Lottery’s internal controls over the payment of prizes were
RESULTS IN BRIEF   adequate. However, Lottery funds totaling $1,211,226 were not
                   used for authorized purposes ($1,066,387) or properly collected
                   and deposited to the Lottery’s account ($144,839). Specifically,
                   (1) Lottery funds totaling $99,102 were used by the former
                   Director for personal purposes; (2) collections totaling $11,930
                   were not deposited to the Lottery’s account and may have been
                   stolen; (3) a bank deposit totaling $40,985 was not credited to the
                   Lottery’s bank account and also may have been stolen; (4) accounts
                   receivable totaling $88,224 were not collected from dealers and
                   agents for unpaid returned checks and for instant lottery tickets
                   delivered to business establishments; (5) instant lottery funds
                   totaling $916,000 were transferred to the traditional lottery
                   without proper authorization; (6) additional funds of $51,000 were
                   used to fund a celebrity golf tournament and to pay the cost for 30
                   students to attend youth games in the United States; (7) licensing
                   fees totaling $3,700 were not collected from agents who sell
                   instant lottery tickets; and (8) a total of $285 from two change
                   funds at the instant lottery could not be accounted for.

                   We also found that unsold instant lottery tickets valued at about
                   $97,000 were not appropriately returned to the contractor for
                   refund and that unsold traditional lottery tickets valued at $14,380
                   were not accounted for and were unavailable for sale until 1 day
                   prior to the drawings. As a result, the Lottery lost revenues of
                   $97,000 from refunds and lost the potential for revenues of
                    $14,380 because tickets were not available for sale. Further,
                    because it had operated at a loss, the Lottery, during fiscal years
                    1998 to 1999, did not transfer any revenues from the traditional
                    lottery to the General Fund, as required by the Virgin Islands
                    Code. Consequently, as of September 30, 1999, the Lottery had
                    reported an accumulated account payable to the Government’s
                    General Fund totaling $3.3 million.

                    During the audit, we also noted other issues related to the Lottery’s
                    compliance with legal requirements and internal control
                    procedures. These matters pertained to (1) the number of members
                    appointed to the Lottery Commission, (2) the issuance of audited
                    financial statements, (3) the preparation of monthly activity
                    reports, (4) the maintenance of property control records and the
                    performance of periodic physical inventories of equipment, (5) the
                    management of computer operations and the assurance of Y2K
                    compliance, and (6) the methodology used to verify daily cash
                    collections.


                    We made 1 recommendation to the Governor of the Virgin Islands
RECOMMENDATIONS     and 15 recommendations to the Virgin Islands Lottery to address
                    the possible misuse of Lottery funds and the internal control
                    weaknesses disclosed by the audit.

                    The Governor and the Lottery concurred with the 16
AUDITEE COMMENTS    recommendations and indicated that corrective actions had been or
AND OFFICE OF       would be taken. Based on the responses, we considered 3
INSPECTOR GENERAL   recommendations resolved and implemented and 10
EVALUATION          recommendations resolved but not implemented and requested
                    additional information for the 3 remaining recommendations.




                                   2
CONTENTS
                   ................................................                                                1
EXECUTIVE
SUMMARY

                   Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          5
INTRODUCTION       Objective and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               5
                   Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                6

                   Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
RESULTS OF AUDIT   Disposition of Lottery Funds . . . . . . . . . . . . . . . . . . . . . . . . 7
                   Controls Over Unsold Lottery Tickets . . . . . . . . . . . . . . . . . 11
                   Distribution of Lottery Revenues . . . . . . . . . . . . . . . . . . . . . 12
                   Other Lottery-Related Issues . . . . . . . . . . . . . . . . . . . . . . . . 12

                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
RECOMMENDATIONS
                   1.   Monetary Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            20
APPENDICES         2.   Prior Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            21
                   3.   Responses to Draft Report . . . . . . . . . . . . . . . . . . . . . . . .                23
                   4.   Status of Recommendations . . . . . . . . . . . . . . . . . . . . . . .                  27




                                         3
4
INTRODUCTION
                The Virgin Islands Lottery was created by statute in 1937 and
BACKGROUND      established as an independent instrumentality of the Government
                of the Virgin Islands in 1971. The Lottery’s operations are
                managed by a Director, who is subject to the supervision of a
                7-member Lottery Commission. The Virgin Islands Code
                (32 V.I.C. Chapter 13) specifies the powers and duties of the
                Director and the Lottery Commission.

                According to the Lottery’s Acting Director, the Lottery’s mission
                is to operate a lottery system in an efficient, fair, and trustworthy
                manner, and the Lottery’s goals are to improve the efficiency of
                lottery operations and to reduce operating expenditures in order to
                increase the amount of revenues transferred to the Government’s
                General Fund.

                The Lottery has 44 employees to administer the traditional and
                instant lotteries and the licensing of 581 lottery agents and dealers.
                The traditional lottery is conducted on a biweekly basis with 24
                regular and 2 special drawings. For each regular drawing, 32,000
                sheets of tickets (25 tickets per sheet) are printed and sold to
                dealers for $20 per sheet (or $.80 per ticket). For each special
                drawing, 40,000 sheets of tickets (25 tickets per sheet) are printed
                and sold to dealers for $40 per sheet (or $1.60 per ticket). Instant
                lottery tickets are sold for $1 and $2, and agent and dealer license
                fees are $25 per year.

                Although revenues of the Virgin Islands Lottery are derived from
                the sale of traditional and instant lottery tickets and the licensing
                of agents and dealers, the Lottery’s financial statements reflected
                revenue and expenditure activity only for the traditional lottery.
                Revenues totaled $27,793,400 during fiscal years 1998 and 1999,
                and expenditures during the same 2 years totaled $28,182,366.
                The Lottery’s unaudited financial statements showed losses of
                $120,062 in fiscal year 1998 and $268,904 in fiscal year 1999.


                The objective of the audit was to determine whether the Lottery
OBJECTIVE AND   (1) had adequate procedures and management controls in place for
SCOPE           the disposition of revenues from ticket sales, the payment of prizes,
                and the disposition of unsold lottery tickets and (2) distributed its
                revenues in accordance with legal requirements. The scope of the
                audit included Lottery activities that occurred during fiscal years
                1998 and 1999 and other periods as deemed appropriate.


                               5
              To accomplish our audit objective, we reviewed the Lottery’s
              operating procedures; reports prepared for ticket sales, drawing
              activities, and financial statements; receipts prepared for ticket
              sales to dealers and agents and for prize payments; and records for
              payrolls, expenditures, and equipment. The audit was conducted
              from February through September 2000 at the offices of the
              traditional and instant lotteries and at business establishments on
              St. Thomas and St. Croix where instant lottery tickets were sold.

              Our audit was conducted in accordance with the "Government
              Auditing Standards," issued by the Comptroller General of the
              United States. Accordingly, we included such tests of records and
              other auditing procedures that were considered necessary under
              the circumstances. The "Standards" requires that we obtain
              sufficient, competent, and relevant evidence to afford a reasonable
              basis for our findings and conclusions.

              As part of our audit, we evaluated the internal controls at the
              Lottery to the extent we considered necessary to accomplish the
              audit objective. Internal control weaknesses were identified in the
              areas of disposition of lottery funds; disposition of unsold lottery
              tickets; distribution of revenues; and compliance with the laws,
              rules, and regulations related to the Lottery’s operations. These
              weaknesses are discussed in the Results of Audit section of this
              report. The recommendations, if implemented, should improve the
              internal controls in these areas.


              The Office of Inspector General has not issued any reports on the
PRIOR AUDIT   Virgin Islands Lottery during the past 5 years. However, since
COVERAGE      1984, the Office of Inspector General and the Virgin Islands
              Bureau of Audit and Control have issued a total of three reports
              related to the Lottery’s operations (see Appendix 2).




                             6
RESULTS OF AUDIT
                 The Lottery’s internal controls over the payment of prizes were
OVERVIEW         adequate, but other controls needed improvement. Specifically,
                 we found that Lottery funds totaling $1,066,387 were used for
                 questionable purposes; revenues totaling $144,839 were not
                 realized; unsold lottery tickets valued at $111,380 were not
                 adequately controlled; and the Lottery had not made legally
                 required transfers totaling $3.3 million to the Government’s
                 General Fund. These conditions occurred because the Lottery did
                 not have adequate procedures and management controls in place
                 for (1) the disposition of revenues from ticket sales and fees from
                 agent and dealer licenses and (2) the disposition of unsold lottery
                 tickets. In addition, we concluded that the Lottery did not comply
                 with certain provisions of the Virgin Islands Code related to the
                 required transfer of a percentage of revenues to the General Fund,
                 the required number of Lottery Commission members, the
                 publication of audited financial statements, and the preparation and
                 submission of monthly financial reports. Further, the Lottery did
                 not have adequate controls over equipment, computer operations,
                 and daily cash collections.


                 Lottery funds totaling $1,211,226 were not used for authorized
DISPOSITION OF   purposes ($1,066,387) or properly collected and deposited to the
LOTTERY FUNDS    Lottery’s account ($144,839). Specifically, we found that (1)
                 Lottery funds totaling $99,102 were used by the former Director
                 for personal purposes; (2) collections totaling $11,930 were not
                 deposited to the Lottery’s account and may have been misused; (3)
                 a bank deposit totaling $40,985 was not credited to the Lottery’s
                 bank account and also may have been misused; (4) accounts
                 receivable totaling $88,224 were not collected from dealers and
                 agents for unpaid returned checks and for instant lottery tickets
                 delivered to business establishments; (5) instant lottery funds
                 totaling $916,000 were transferred to the traditional lottery
                 without proper authorization and additional funds of $51,000 were
                 used for purposes that did not add value to the operations of the
                 instant lottery; (6) licensing fees totaling $3,700 were not
                 collected from agents who sell instant lottery tickets; and (7) a
                 total of $285 from two change funds at the instant lottery could not
                 be accounted for.




                                7
Lottery Credit Card Used   In June 1995, the former Director opened a management account
for Personal Expenses      with an investment firm on St. Thomas. The management account
Totaling $99,102           provided the Director and the Assistant Director with credit cards
                           to make cash withdrawals from automated teller machines and to
                           make purchases at business establishments without the authority,
                           knowledge, or consent of the Lottery Commission or the
                           Government. Our analysis of the expenditures incurred by the
                           former Director indicated that the expenditures were primarily of
                           a personal nature and were not related to the operations of the
                           Lottery. However, we concluded that expenditures incurred by the
                           Assistant Director were for Lottery operation purposes.

                           During the period of June 1995 to March 1999, funds of $161,387
                           from the traditional and instant lotteries were deposited into the
                           management account. Our review of the management account
                           monthly statements, which detailed the transaction date, vendor
                           name, vendor location, and dollar amount for each credit card
                           transaction, showed that the former Director used Lottery funds of
                           at least $99,102 for personal purposes.

                           Specifically, during the period of July 1995 to January 1999, the
                           former Director incurred $60,678 in miscellaneous expenditures
                           for charges at restaurants, hotels, boutiques, sports facilities, and
                           department and specialty stores and for Internet service and
                           cellular telephones among other charges; withdrew $34,638 in
                           cash from various automated teller machines in the Virgin Islands
                           and the continental United States; incurred $139 for automated
                           teller machine usage fees; incurred $600 in annual usage fees for
                           the management account and the credit card; and incurred $3,047
                           in overdraft fees.

                           In an October 20, 1998 letter, the Lottery’s Special Assistant
                           informed the former Director that the Virgin Islands Code
                           (32 V.I.C. Chapter 13) did not contain a provision that authorized
                           the withdrawal of Lottery funds without adequate supporting
                           documentation to show the Lottery-related purpose of the
                           expenditures. In a January 25, 1999 letter, the then Assistant
                           Director also requested that the former Director "rectify any
                           disallowed expenditures that are still outstanding." As of
                           September 30, 2000, the former Director had not repaid any of the
                           cash withdrawals or personal expenditures.




                                          8
Cash Collections        According to the Lottery’s Office Manager, the established
Totaling $11,930 Not    practice regarding collection of unpaid returned checks is to mail
Deposited               a form letter to dealers and agents requesting payment. The check
                        number, dealer/agent name, check date, payment date, and check
                        amount are logged into a journal for each unpaid returned check.
                        When payment is made, the payment date, payment amount, and
                        receipt number are written in red in the journal. Our review
                        showed that during the period of July to November 1998, on three
                        occasions a dealer made cash payments totaling $11,930 at the
                        Lottery office to satisfy payment for six unpaid returned checks.
                        Although the dealer was issued receipts for the cash payments, the
                        payment information was not transcribed into the journal and the
                        cash was not included in the days’ deposits. In September 1999,
                        the employee who processed these transactions left her position
                        without officially resigning, and as of September 30, 2000, no
                        efforts had been made to recoup the $11,930.


Bank Deposit Totaling   On July 11, 1997, an armored delivery service employee picked
$40,985 Missing         up two bank deposit bags from the Lottery’s sales office in
                        Charlotte Amalie, St. Thomas, for delivery to a local bank.
                        However, the Lottery’s bank account was credited only for the
                        money contained in one of the bank bags. Accordingly, the other
                        bank bag, which contained $40,985, was not credited to the
                        Lottery’s bank account, although the records maintained by the
                        armored delivery service company indicated that a bank employee
                        received and signed for two bank bags. In a September 18, 1997
                        letter, the former Director wrote the bank’s branch manager
                        regarding the unaccounted-for bank bag. In an October 26, 1997
                        letter, the bank’s branch manager stated that the bank did not have
                        any record of ever having received the unaccounted-for bank bag.
                        After the initial letter from the former Director, no other efforts
                        were made to recoup the missing $40,985.


Accounts Receivable     On April 6, 1994, the Legislature passed Act No. 5966, which
Totaling $88,224        authorized the Lottery Commission to assess a $25 fee on each
Not Collected           unpaid returned check issued to the Lottery by dealers and agents.
                        In addition, Act No. 5966 stated, "The Commission shall establish,
                        within ninety (90) days of the enactment of this Act [April 6,
                        1994], a standard policy for dealing with lottery dealers or sales
                        agents who deliver more than three unpaid returned checks within
                        a twelve (12) month period." However, we determined that a
                        standard policy was neither developed nor distributed to Lottery
                        employees. As a result, cashiers were not restricted from
                        accepting checks from dealers and agents with outstanding account
                        balances due for unpaid returned checks. As of September 30,

                                       9
                         1999, 42 lottery dealers had outstanding account balances totaling
                         $45,659, and as of March 31, 2000, 16 sales agents had
                         outstanding accounts receivable balances totaling $8,769 as a
                         result of unpaid returned checks. In addition, we found that as of
                         December 31, 1999, 70 sales agents owed the Lottery $33,796 for
                         instant lottery tickets delivered to their business establishments but
                         for which funds had not been remitted. Therefore, the total amount
                         of uncollected accounts receivable was about $88,224.


Questionable Transfers   We found that operating expenses of the instant lottery were
Totaling $916,000        initially paid from the operating account of the traditional lottery
Made From Instant        and that, to reimburse the operating account of the traditional
Lottery                  lottery, deductions were made from the operating account of the
                         instant lottery on a quarterly basis. However, five certificates of
                         deposit totaling about $836,000 were purchased during the period
                         of February to July 1996 using instant lottery funds. When these
                         certificates of deposit were canceled by the Lottery during the
                         period of November 1996 to February 1999, all of the proceeds
                         were deposited into the operating account of the traditional lottery.
                         In addition, we found funds totaling $80,000 that had been
                         transferred from the operating account of the instant lottery to the
                         operating account of the traditional lottery. Both the certificates of
                         deposit and the transfer were in excess of the amount required for
                         reimbursement of the initial expenditures of the instant lottery. We
                         therefore concluded that instant lottery funds of $916,000 were
                         used to absorb operating expenditures of the traditional lottery.


Instant Lottery          We also found that in April 1996 and September 1997, instant
Funds Totaling $51,000   lottery funds of $30,000 were transferred to a management account
Not Used for Instant     for use at the discretion of the Director and the Assistant Director.
Lottery Purposes         Additionally, in August 1997, instant lottery funds of $21,000 were
                         used to fund the cost for 30 students to attend youth games in the
                         continental United States and to fund a portion of a celebrity golf
                         tournament. These expenditures, which totaled $51,000, did not
                         add value to the operations of the instant lottery.


Lottery Agent License    Although traditional lottery dealers were required to renew their
Fees Totaling $3,700     licenses on an annual basis, no such requirement existed for agents
Not Collected            who sold instant lottery tickets. However, we believe that the
                         intent of the Lottery was to require renewal of the agent license on
                         an annual basis because the agent application form was valid for
                         a period of 1 year, with extensions for successive 1-year periods.
                         Moreover, during the period of 1994 through 1997, when the
                         instant lottery was run by a contracted firm, instant lottery agents

                                        10
                           were required to renew their licenses on an annual basis. In 1998,
                           when management of the instant lottery was transferred from the
                           contracted firm to the Lottery, fees for agent licenses were not
                           requested or collected by staff at the instant lottery or the
                           administration at the traditional lottery, although instant lottery
                           tickets continued to be delivered to the agents’ places of business.
                           During fiscal years 1998 and 1999, 74 agents sold instant lottery
                           tickets. Based on the annual renewal fee of $25, we determined
                           that the Lottery did not collect $3,700 in agent licensing fees over
                           the 2-year period.


                           At least 1,165 packets of unsold instant lottery tickets valued at
CONTROLS OVER              about $97,000 were not appropriately returned to the contractor
UNSOLD LOTTERY             for refund, and 604 sheets of unsold traditional lottery tickets
TICKETS                    valued at $14,380 were not accounted for until 1 day prior to the
                           drawings. As a result, the Lottery lost revenues of $111,380 from
                           refunds and potential sales.


Instant Lottery Tickets    The contract with the firm that managed the instant lottery from
Valued at $97,000 Not      1994 to 1997 contained a clause which stated that the contractor
Returned for Refund        would "assume [the] risk of all unsold tickets." Despite this
                           provision, we found 1,165 packages of instant lottery tickets
                           valued at about $97,000 that the Lottery did not return to the
                           contractor for refund. This occurred because the Lottery did not
                           have adequate control over unsold tickets.


Traditional Lottery        During fiscal years 1998, 1999, and 2000 (through July 31),
Tickets Valued             604 sheets of unsold tickets valued at $14,380 remained
at $14,380 Not Available   unaccounted for until 1 day prior to the drawings, although
for Sale                   inventories of tickets should have been conducted on a daily basis
                           and documented on forms entitled "Daily Inventory of Ticket
                           Sales." Of the 604 sheets of tickets, 295 sheets valued at $8,000
                           were unaccounted for at the Sunny Isle, St. Croix, branch;
                           262 sheets valued at $5,240 had been reprinted for Drawing
                           No. 25 in September 1998 and were unaccounted for; and
                           47 sheets valued at $1,140 were not accounted for on St. Thomas
                           and St. John and at Frederiksted, St. Croix. Because these 604
                           sheets of tickets were not available for sale, the Lottery lost
                           potential ticket sales revenue of $14,380.




                                         11
                   Although not expressly stated in the Virgin Islands Code, it
DISTRIBUTION OF    appears that the Virgin Islands Lottery was established primarily
LOTTERY REVENUES   for the purpose of providing funds to help support the operations
                   of the Government of the Virgin Islands. This assumption is based
                   on 32 V.I.C. § 246(a)11(i), which requires the Lottery to
                   "transfer . . . not less than five percent (5%) of the revenues of the
                   official lottery . . . to the General Fund of the Treasury of the
                   United States Virgin Islands." However, because it has operated
                   at a loss, the Lottery, during fiscal years 1998 to 1999, did not
                   transfer any revenues from the traditional lottery to the General
                   Fund. Accordingly, as of September 30, 1999, the Lottery had an
                   accumulated account payable to the Government’s General Fund
                   totaling $3.2 million. This amount is reported in the Lottery’s
                   unaudited financial statements for the fiscal year ending September
                   30, 1999.

                   Regarding the instant lottery, we found that during fiscal years
                   1994 to 2000 (through June 30, 2000), the Lottery transferred
                   $530,372 from the instant lottery to the General Fund. However,
                   based on our review of quarterly sales reports prepared by the
                   instant lottery’s accountant, we estimated that the contributions to
                   the General Fund should have been $643,460, or $113,088 more
                   than the amount actually transferred by the Lottery. We attributed
                   the difference to the Lottery’s not always including instant lottery
                   sales for the entire month when calculating the required
                   contribution amounts.

                   In order to improve the ability of the Lottery to generate sufficient
                   revenues to make required transfers to the Government’s General
                   Fund, the Lottery must reduce expenditures and maximize
                   collections, as discussed in this report. Additionally, the Lottery
                   should investigate ways, including new types of lottery games, to
                   make itself more attractive to potential customers while improving
                   its profitability.


                   During the audit, we noted certain other matters related to the
OTHER              Lottery’s compliance with legal requirements and internal control
LOTTERY-RELATED    procedures. These matters pertained to (1) the number of members
ISSUES             appointed to the Lottery Commission, (2) the issuance of audited
                   financial statements, (3) the preparation of monthly activity
                   reports, (4) the maintenance of property control records and the
                   performance of periodic physical inventories of equipment, (5) the
                   management of computer operations and the assurance of Y2K
                   compliance, and (6) the methodology used to verify daily cash
                   collections.



                                  12
Required Number of      The Virgin Islands Code (32 V.I.C. §244(a)) states:
Commission Members
Not Appointed                  The Virgin Islands Lottery Commission shall be
                               composed of the Commissioner of Finance who
                               shall be the Chairman of the Commission, five
                               additional members appointed by the Governor,
                               subject to confirmation by the Legislature, for a
                               term of four years. Of the five members appointed
                               by the Governor and confirmed by the Legislature,
                               two members shall be licensed lottery sales agents,
                               one from the District of St. Thomas-St. John and
                               one from the District of St. Croix; of the remaining
                               three members, one each shall be a resident of St.
                               Croix, St. Thomas and St. John, respectively.

                        We found that since at least 1997, the Governor had not appointed
                        the "five additional members" required by the Code. Therefore,
                        since at least 1997, the Lottery Commission has been inactive, and
                        rules and regulations to add value to the operations of the Lottery
                        have not been promulgated.

                        In addition, as of January 1999, the Governor had not appointed a
                        permanent Lottery Director in accordance with the Virgin Islands
                        Code (32 V.I.C. §245(a)).


Audited Financial       The Virgin Islands Code (32 V.I.C. §260a) states, "The financial
Statements Not Issued   records of the Commission, as they pertain to Lottery revenues,
                        shall be subjected to an annual independent audit by a certified
                        public accountant or firm of certified public accountants to be
                        designated by the President of the Legislature." However, the most
                        recent financial statements to be audited were for the fiscal year
                        ended September 30, 1988. Accordingly, during fiscal years 1989
                        to 1999, or a period of 11 years, the Lottery had not had an
                        independent evaluation of its financial statements.

                        In June 2000, the Lottery’s Special Assistant provided us with
                        unaudited financial statements for fiscal years 1998 and 1999. Our
                        limited review of these financial statements showed that much of
                        the information compiled by the Special Assistant could not be
                        corroborated or was inaccurate. For example, we found the
                        following:

                            - Revenues from the "Sales of Tickets" as reported in the
                        Statement of Revenues and Expenses did not include revenues
                        from the instant lottery.



                                      13
                         - "Cash and Cash Equivalents" as reported in the Balance
                      Sheet did not include the amounts of existing change funds.

                          - "Property, Plant and Equipment" as reported on the Balance
                      Sheet could not be corroborated because the Lottery did not have
                      an accurate, current, and complete property list. In addition,
                      accumulated depreciation increased from $127,623 in fiscal year
                      1998 to $516,124 in fiscal year 1999 without any corresponding
                      increase in the reported amounts for depreciable assets.
                      Furthermore, the notes to the financial statements indicated that the
                      Lottery’s assets were depreciated using the straight-line method.


Monthly Reports Not   The Virgin Islands Code (32 V.I.C. Chapter 13 § 247(i)) states that
Prepared              the Lottery’s Director has the duty "[t]o certify monthly to the
                      Commissioner of Finance and the Commission a full and complete
                      statement of lottery revenues, prize disbursements and other
                      expenses for the preceding month." In addition, the Code (32
                      V.I.C. § 246(a)(12)(d)) states that the Lottery Commission has the
                      duty "[t]o report monthly to the Governor and the Legislature the
                      total lottery revenues, prize disbursements and other expenses for
                      the preceding month, and to make an annual report, which shall
                      include a full and complete statement of lottery revenues, prize
                      disbursements, and other expenses, to the Governor and the
                      Legislature." Despite these requirements, the last monthly report
                      prepared by the Lottery was for August 1995. Because there has
                      been no active Lottery Commission since 1997, monthly reports
                      also have not been submitted to the Governor and the Legislature.


Adequate Property     The Lottery did not have an accurate, current, and complete
Control Records Not   property list and had no record of ever having conducted a
Maintained            physical inventory of equipment. We found that the Lottery’s
                      administration unit had a property list prepared in 1997, that the
                      Lottery’s Special Assistant had a list of computer equipment but
                      the list did not contain the cost or location of the items, and that the
                      Lottery’s accountant maintained paid vouchers for equipment items
                      purchased since 1997.

                      We reviewed a sample of 30 equipment items from the three
                      property record sources maintained by the Lottery. Based on our
                      review, we located 19 pieces of equipment but were unable to
                      locate 11 pieces of equipment.

                      To strengthen internal controls in this area, we believe that the
                      Lottery should prepare master property records to include, but not
                      necessarily be limited to, (1) a description of the property; (2) a

                                     14
                          serial number; (3) a Lottery property tag number; (4) the name of
                          the person who has custody of the property; (5) the location, use,
                          and condition of the property; (6) the acquisition date; (7) the cost
                          of the property; and (8) any ultimate disposition data, including
                          date of disposal and sale price of the property. In addition, we
                          believe that physical inventories should be conducted at least once
                          every 2 years and that the results of the physical inventories should
                          be reconciled to the property records.


Computer Operations Not   The Lottery did not have a computer specialist to oversee the data
Adequately Supervised     processing needs of the traditional and instant lotteries. Regarding
                          the traditional lottery, we found that desktop computers in the
                          administrative unit were not connected to the Lottery’s mainframe
                          computer, the accounting software did not contain cash
                          management and payroll modules, and only the prize payment
                          module had been installed in the ticket sales and prize payment
                          unit on St. Thomas. In addition, nine desktop computers on
                          St. Thomas, St. John, and St. Croix were not being used because
                          operating software had not been appropriately installed.

                          Regarding the instant lottery, computers had not been upgraded as
                          of June 30, 2000 to ensure that they were Y2K compliant because
                          the contract to perform this work had not been approved by the
                          Department of Justice and the Government’s Office of Information
                          Technology.

                          To strengthen internal controls in this area, we believe that the
                          Lottery should hire a computer specialist to assist it in meeting its
                          data processing needs and that the contract to perform Y2K
                          upgrades should be finalized and approved.


Procedures To Verify      The Lottery’s accounting unit reviewed the work of the Lottery’s
Daily Collections Not     cashiers to determine whether receipts were appropriately
Adequate                  prepared and whether each day’s deposit could be validated by the
                          receipts. Despite this practice, we found that cash shortages and
                          overages were not properly reconciled and accounted for. For
                          example, on June 15, 2000 a cashier sold 25 sheets of special
                          drawing tickets to a dealer at $40 per sheet, for a total sales price
                          of $1,000. Although the cashier indicated on the sales receipt that
                          25 sheets of tickets had been sold, the cashier inadvertently wrote
                          $100 as the amount collected. In reviewing this transaction, the
                          accountant recorded the error but incorrectly assumed that there
                          was a cash overage because the day’s deposit was $900 more than
                          could be validated by the day’s sales receipts. Had the situation
                          involved a cash shortage, the accountant would have established

                                        15
                      an account receivable from the cashier in the amount of the
                      shortage. However, this control procedure did not consider
                      whether the value of the tickets sold and the amount of lottery
                      license fees collected each day were equal to the total amount of
                      funds collected and deposited. We also found that the supervisors
                      located at the Lottery’s branch offices did not conduct detailed
                      reviews of daily collections and receipt documents to identify and
                      correct the frequent errors made by the cashiers. Accordingly, we
                      believe that (1) the control procedures used by the accounting unit
                      should include a reconciliation of the number of tickets sold to the
                      amount of cash collected and deposited and, in the case of cash
                      shortages, the establishment of accounts receivable from cashiers
                      and (2) branch office supervisors should review and reconcile the
                      daily collections and receipt documents.


Unauthorized Change   During the period of April 1994 to January 1998, the instant lottery
Funds Established     was managed by a contracted firm. As part of the contracted firm’s
                      operations, change funds were established at both the St. Thomas
                      and the St. Croix offices. In February 1998, the lottery assumed
                      the day-to-day operations of the instant lottery. As part of the
                      transition, the employees who worked for the contracted firm
                      became employees of the lottery. These employees continued the
                      use of the change funds but did not inform lottery officials of the
                      existence of the change funds.

                      We found that although documentation of authorization was not
                      provided for the establishment of change funds at the instant lottery
                      offices on St. Thomas and St. Croix, each office had a change fund
                      of $300. At the time of our cash counts, the change fund on
                      St. Thomas had a balance of $17, or $283 less than required, and
                      the change fund on St. Croix had a balance of $298, or $2 less than
                      required. The St. Thomas cashier was not aware of the
                      methodology to account for a change fund. In addition, Lottery
                      officials were not aware that the change fund for the St. Thomas
                      office had been depleted.




                                    16
RECOMMENDATIONS
                  We recommend that the Governor of the Virgin Islands:
TO THE GOVERNOR
OF THE VIRGIN              1. Appoint five additional members to the Lottery
ISLANDS           Commission in accordance with the Virgin Islands Code
                  (32 V.I.C. § 244(a)) and appoint a permanent Lottery Director,
                  also in accordance with the Code (32 V.I.C. § 245(a)).


                  We recommend that the Virgin Islands Lottery:
TO THE VIRGIN
ISLANDS LOTTERY           2. Seek reimbursement of the $99,102 used by the former
                  Director for personal purposes; the $40,985 from the missing bank
                  deposit bag; and the $11,905 in collections unaccounted for from
                  a former Lottery employee.

                           3. Develop and implement, in accordance with Act
                  No. 5966, a standard policy for dealing with lottery dealers or
                  sales agents who deliver more than three unpaid returned checks
                  to the Lottery within a 12-month period

                            4. Develop and implement a policy to actively pursue
                  collection of accounts receivable for unpaid returned checks and
                  for instant lottery tickets delivered to business establishments and
                  not paid for.

                            5. Refrain from transferring funds from the operating
                  account of the instant lottery to the operating account of the
                  traditional lottery except for purposes of reimbursing the account
                  of the traditional lottery for validated operating expenses of the
                  instant lottery initially paid from the operating account of the
                  traditional lottery.

                           6. Develop and implement a policy that requires the
                  annual renewal of agent licenses and payment of licensing fees.

                            7. Submit to the former management firm of the instant
                  lottery the 1,165 unsold instant tickets valued at $97,000 and
                  request reimbursement in accordance with the terms and conditions
                  of the management contract.

                           8. Prepare the form "Daily Inventory of Ticket Sales" on
                  a daily basis in order to accurately record and document the daily
                  inventory of unsold lottery tickets.


                                17
         9. Establish and implement, in accordance with the
Virgin Islands Code (32 V.I.C. § 246(a)11(i)), a plan of action to
improve the profitability of the Lottery so that it will be financially
able to remit the $3.3 million owed the Government’s General
Fund and continue to remit a portion of revenues.

        10. Request, in accordance with the Virgin Islands Code
(32 V.I.C. § 260a), that the Legislature designate a certified public
accountant or certified public accounting firm to audit the annual
financial statements of the Lottery.

        11. Require, in accordance with the Virgin Islands Code
(32 V.I.C. § 246(a)(12)(d), that the Lottery report monthly to the
Governor and the Legislature the total amounts of lottery revenues
(from the traditional and instant lotteries and fees collected from
dealers and agents for licenses), prize disbursements, and other
expenses of the Lottery.

         12. Establish a time frame to begin preparation of a
certified monthly report to the Commissioner of Finance and the
Lottery Commission, in accordance with the Virgin Islands Code
(32 V.I.C. § 247(i)), which provides a full and complete statement
of lottery revenues, prize disbursements, and other expenses.

        13. Develop and implement procedures to maintain master
property records that include the specific information detailed in
the section "Other Lottery-Related Issues" on property control
records, perform physical inventories of equipment at least once
every 2 years, and reconcile the results of the inventories to the
property records.

       14. Hire a computer specialist to assist the Lottery in
meeting its data processing needs and take action to finalize and
implement the proposed contract for Y2K upgrades to the Lottery’s
computers.

         15. Develop and implement new operating procedures to
ensure that the daily verification of collections and deposits also
includes a reconciliation to the value of lottery tickets sold and
lottery license fees collected each day and the recording of cash
shortages as accounts receivable due from the responsible cashier.
In addition, the branch office supervisors should review and
reconcile the daily collections and receipt documents of each
cashier.

       16. Develop and implement a policy to ensure that change
funds are properly accounted for on a daily basis. In addition,

               18
                     assurance should be provided that change funds are included in the
                     "Cash and Other Equivalents" account in the Lottery’s balance
                     sheet.


                     The February 15, 2001 response (Appendix 3) to the draft report
GOVERNOR OF THE      from the Governor of the Virgin Islands, which transmitted a
VIRGIN ISLANDS AND   February 8, 2001 response from the Virgin Islands Lottery,
VIRGIN ISLANDS       concurred with the 16 recommendations and indicated that
LOTTERY              corrective actions had been or were being taken.
RESPONSES

                     Based on the responses, we consider Recommendations 6, 8, and
OFFICE OF            16 resolved and implemented and Recommendations 1, 3, 4, 5, 9,
INSPECTOR            10, 11, 12, 14, and 15 resolved but not implemented. We also
GENERAL              requested additional information for Recommendations 2, 7, and
REPLY                13 (see Appendix 4).




                                   19
APPENDIX 1 - MONETARY IMPACT
                                   Questioned   Unrealized   Funds To Be Put
FINDING AREAS                       Costs*      Revenues*     To Better Use*

Disposition of Lottery Funds       $1,066,387   $144,839

Controls Over Unsold Lottery
  Tickets                                        111,380

Distribution of Lottery
   Revenues                                                     $3,313,088

   Totals                          $1,066,387   $256,219        $3,313,088




__________
* Amounts represent local funds.




                                        20
APPENDIX 2 - PRIOR AUDIT REPORTS
                  The August 1984 memorandum report "Review of Virgin Islands
OFFICE OF         Lottery Office" (No. V-TG-VIS-22-84) stated that internal controls
INSPECTOR         over Lottery operations were adequate. Specifically, procedures
GENERAL           were in place for the proper disposition of ticket sales and prize
REPORTS           payments, drawings were apparently random and there was no
                  evidence of drawings being influenced by outside sources,
                  advertising was used effectively, and operating expenses were
                  valid and properly recorded.          The report included six
                  recommendations to improve the profitability of the Lottery.


                  The 1997 letter report "Limited Review of Employee Accounts
VIRGIN ISLANDS    Receivable at the [Virgin Islands] Lottery" (No. AM-01-36-98)
BUREAU OF AUDIT   stated that in 1996, the Lottery (1) overpaid prize winners by at
AND CONTROL       least $10,000 and underpaid prize winners by at least $8,000; (2)
REPORTS           allowed employee accounts receivable to increase to more than
                  $45,000 and failed to recoup losses from these employees; and (3)
                  did not enforce punitive sanctions against defaulting cashiers in an
                  attempt to either minimize or deter the incidence of transaction
                  inaccuracies and/or fraudulent activities. During our current
                  review, we found that as of December 31, 1999, employee
                  accounts receivable had increased to $144,788 but that the
                  methodology used by Lottery accountants to determine the accounts
                  receivable amounts may not have captured all cases of cash
                  shortages.

                  The 1993 letter report "Followup Review of Recommendations
                  Made in the Audit of the Internal Controls Over the Virgin Islands
                  Lottery System Operations" (No. AM-10-31-93) stated that
                  although the Lottery Commission concurred with the findings and
                  recommendations contained in the prior (1991) report, only limited
                  corrective actions had been taken. Of the 20 recommendations
                  contained in the 1991 report, 11 recommendations were
                  considered resolved and implemented, 8 recommendations were
                  considered unresolved, and 1 recommendation was considered
                  partially resolved and implemented. Specifically, the followup
                  review found that the Lottery did not (1) segregate duties for the
                  issuance, sale, accountability, and inventory of tickets; (2) collect
                  monies due from dealers whose checks were returned unpaid by
                  issuing banks; (3) refrain from selling lottery tickets to individuals
                  not authorized to be dealers; (4) correct flaws in the data
                  processing program designed to control lottery ticket inventories;
                  (5) verify the authenticity of tickets submitted as winners of minor
                  prizes; (6) implement adequate security of cashier cages and

                                 21
storage of lottery tickets; (7) prepare and submit reports required
by the Virgin Islands Code (32 V.I..C. Chapter 13); (8) develop
and implement adequate internal controls over the special paper
used to print lottery tickets; and (9) conduct performance reviews
of supervisors and employee staff members. During our current
review, we found that these internal control weaknesses had not
been corrected.




              22
APPENDIX 3 - RESPONSES TO DRAFT REPORT




                   23
     APPENDIX 3
       Page 2 of 4




24
     APPENDIX 3
       Page 3 of 4




25
     APPENDIX 3
       Page 4 of 4




26
APPENDIX 4 - STATUS OF RECOMMENDATIONS
Finding/Recommendation
       Reference                 Status                      Action Required

 1, 3, 4, 5, 9, 10, 11, 12,   Resolved;      Provide this office supporting documentation
        14, and 15            not            upon completion of the corrective actions.
                              implemented.

         2 and 13             Management     Provide target dates for completing the proposed
                              concurs;       corrective actions. Also, supporting
                              additional     documentation should be provided upon
                              information    completion of the corrective actions.
                              requested.

       6, 8, and 16           Implemented.   No further action is required.

             7                Management     Provide documentation regarding the agreement
                              concurs;       between the former Director and the former
                              additional     management firm regarding the disposition of
                              information    unsold lottery tickets.
                              requested.
 Mission Statement
 The Office of Inspector General conducts and supervises audits
 and investigations of Department of the Interior and insular area
 government programs and operations to:

 ! Promote the economy, efficiency, and effectiveness of programs
   and operations and

 ! Prevent and detect fraud, waste, and abuse in programs and
   operations.




How to Report Fraud, Waste, and Abuse
 Fraud, waste, and abuse in Government are the concern of
 everyone – Office of Inspector General staff, Departmental
 employees, and the general public. We actively solicit allegations
 of any inefficient and wasteful practices, fraud, and abuse related
 to Departmental or insular area programs and operations. You can
 report allegations to us by:

 Mail:         U.S. Department of the Interior
               Office of Inspector General
               Mail Stop 5341-MIB
               1849 C Street, NW
               Washington, DC 20240

 Phone:        24-Hour Toll Free                     800-424-5081

               Washington Metro Area                 202-208-5300
               Hearing Impaired                      202-208-2420
               Fax                                   202-208-6023

               Caribbean Regional Office             340-774-8300
               Pacific Field Office                  671-647-6060

 Internet:     www.oig.doi.gov/hotline_form.html
